No. 20-222
IN THE

GOLDMAN SACHS GROUP, INC., ET AL.,
v.

Petitioners,

ARKANSAS TEACHER RETIREMENT SYSTEM, ET AL.,
Respondents.
On Writ of Certiorari to the United States Court of
Appeals for the Second Circuit
BRIEF OF RESPONDENTS
Thomas A. Dubbs
James W. Johnson
Michael H. Rogers
Irina Vasilchenko
LABATON SUCHAROW LLP
140 Broadway, 34th Floor
New York, NY 10005
Spencer A. Burkholz
Joseph D. Daley
ROBBINS GELLER RUDMAN
& DOWD LLP
655 W. Broadway, Ste. 1900
San Diego, CA 92101

Thomas C. Goldstein
Counsel of Record
Kevin K. Russell
Erica Oleszczuk Evans
GOLDSTEIN &
RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
tg@goldsteinrussell.com

QUESTIONS PRESENTED
This case presents two questions relating to the
defendants’ proof, at the class-certification stage of a
securities fraud lawsuit, of a complete absence of
“price impact.”
1. How does a court properly account for the
“generality” of the alleged misstatements?
2. Do defendants bear the burden of producing
some evidence or the burden of persuasion?

ii
TABLE OF CONTENTS
QUESTIONS PRESENTED ......................................... i
TABLE OF AUTHORITIES ....................................... iii
BRIEF OF RESPONDENTS ....................................... 1
STATEMENT OF THE CASE..................................... 3
SUMMARY OF ARGUMENT ................................... 15
ARGUMENT .............................................................. 19
I.

Courts May Rely On Evidence Such As
Expert Testimony To Address Whether
Statements Were So Generalized That They
Did Not Affect The Market Price ........................ 19
A. Goldman Fails To Account For How Price
Impact Is Actually Litigated In Securities
Fraud Cases .................................................. 21
B. Courts Should Rely On Evidence, Not
Personal Intuition, About How The
Statements’ Generality Affected The
Market Price ................................................. 26
C. This Court Should Affirm The Second
Circuit’s Judgment........................................ 34

II. Defendants Bear The Burden Of Persuasion
On Price Impact................................................... 40
A. Basic And Halliburton II Assigned
Defendants The Burden Of Persuasion ....... 40
B. Federal Rule Of Evidence 301 Does Not
Preclude This Court From Assigning
Defendants The Burden Of Persuasion
On Price Impact ............................................ 44
CONCLUSION .......................................................... 51

iii
TABLE OF AUTHORITIES
Cases
In re Allstate Corp. Sec. Litig.,
966 F.3d 595 (7th Cir. 2020) .......................... passim
Amgen Inc. v. Conn. Ret. Plans & Tr. Funds,
568 U.S. 455 (2013) ........................................ passim
Basic Inc. v. Levinson,
485 U.S. 224 (1988) ........................................ passim
Chadbourne & Parke LLP v. Troice,
571 U.S. 377 (2014) .................................................. 4
Comcast Corp. v. Behrend,
569 U.S. 27 (2013) .................................................. 48
Constr. Laborers Pension Tr. v. CBS Corp.,
433 F. Supp. 3d 515 (S.D.N.Y. 2020) ..................... 21
Dir. v. Greenwich Collieries,
512 U.S. 267 (1994) .................................... 18, 45, 46
Erica P. John Fund, Inc. v. Halliburton Co.,
563 U.S. 804 (2011) .................................................. 5
Franks v. Bowman Transp. Co.,
424 U.S. 747 (1976) ................................................ 48
Halliburton Co. v. Erica P. John Fund, Inc.,
573 U.S. 258 (2014) ........................................ passim
Int’l Bhd. of Teamsters v. United States,
431 U.S. 324 (1977) ................................................ 48
Johnson v. United States,
576 U.S. 591 (2015) ................................................ 21
Kelly v. Armstrong,
141 F.3d 799 (8th Cir. 1998) .................................. 48
Keyes v. Sch. Dist. No. 1,
413 U.S. 189 (1973) ................................................ 47

iv
Matrixx Initiatives, Inc. v. Siracusano,
563 U.S. 27 (2011) .................................................... 4
Microsoft Corp. v. i4i Ltd. P’ship,
564 U.S. 91 (2011) ............................................ 45, 46
In re Nautilus Motor Tanker Co.,
85 F.3d 105 (3d Cir. 1996) ..................................... 48
NLRB v. Transp. Mgmt. Corp.,
462 U.S. 393 (1983) .............................. 18, 45, 46, 48
Okla. Law Enf’t Ret. Sys. v.
Papa John’s Int’l, Inc.,
2021 WL 371401 (S.D.N.Y. Feb. 3, 2021) .............. 21
Plough, Inc. v. Mason & Dixon Lines,
630 F.2d 468 (6th Cir. 1980) .................................. 48
In re Signet Jewelers Ltd. Sec. Litig.,
2019 WL 3001084 (S.D.N.Y. July 10, 2019) .......... 33
Stoneridge Inv. Partners, LLC v. Sci.-Atl., Inc.,
552 U.S. 148 (2008) ............................................ 3, 50
Tex. Dep’t of Cmty. Affs. v. Burdine,
450 U.S. 248 (1981) .......................................... 41, 43
United States v. White,
466 F.3d 1241 (11th Cir. 2006) .............................. 48
Waggoner v. Barclays PLC,
875 F.3d 79 (2d Cir. 2017) ......................... 40, 43, 50
Statutes
Private Securities Litigation Reform Act of
1995, Pub. L. No. 104-67, 109 Stat. 737 .... 21, 22, 50
Securities Exchange Act of 1934,
15 U.S.C. § 78 et seq. .......................................... 3, 50
15 U.S.C. § 78j(b) ......................................................... 3
15 U.S.C. § 78u-4 ....................................................... 44

v
Regulations
17 C.F.R. § 240.10b-5(b) .................................... passim
Rules
Fed. R. Civ. P. 23 ................................................. 22, 42
Fed. R. Civ. P. 23(b)(3)................................................. 4
Fed. R. Civ. P. 23(f) .............................................. 11, 34
Fed. R. Evid. 301 ................................................ passim
Fed. R. Evid. 1101(c) .................................................. 48
Fed. R. Evid. 1101(d) ................................................. 48
Other Authorities
Christopher B. Mueller & Laird C. Kirkpatrick,
Fed. Evid., Westlaw (database updated May
2020) ....................................................................... 47
James Bradley Thayer, A Preliminary Treatise
on Evidence at the Common Law (1898) ......... 46, 47
Jack B. Weinstein & Margaret A. Berger,
Weinstein’s Evidence Manual, Matthew
Bender (database updated 2020) ........................... 49

1
BRIEF OF RESPONDENTS
This case presents two questions regarding the
certification of securities fraud lawsuits as class
actions. Those questions arise when—in response to
the plaintiffs’ proof of market efficiency and
publicity—the defendants claim that the alleged
misstatements and omissions had no effect on the
security’s market price—i.e., that they had no “price
impact.” If the defendants prove a complete absence of
price impact, the plaintiffs could not have relied on the
market price to transmit information that is material
to the security’s value. Without reliance as a common
question, class certification is generally inappropriate.
The first question presented addresses how the
court’s determination of price impact should account
for the “generality” of the challenged statements.
Below and in the cert. petition, Goldman (the term we
use for petitioners) argued that there can be no price
impact as a matter of law if the statements were so
general as to be legally immaterial—i.e., if no investor
could reasonably rely on them. Goldman now
abandons that argument, no doubt because it is
precluded by this Court’s holding that materiality is
determined at the merits stage, not at class
certification, because it is a common question that is
an element of the plaintiffs’ claim. Goldman argues
instead that the statements’ generality can support
other evidence of a lack of price impact. Further,
Goldman argues, judges can make that determination
as a matter of “common sense.”
Goldman is correct that the statements’ generality
can be relevant to the price-impact determination, but
wrong on the important detail of how courts should
make that determination. Judges should rely on

2
actual evidence—principally, expert submissions—
rather than their own commonsense intuitions.
The judgment should be affirmed because that is
already the rule in the Second Circuit. That court
holds that any evidence relevant to price impact can
be considered, notwithstanding that it overlaps with
materiality. In this very case, Goldman introduced
expert testimony regarding the effect of the
statements’ generality, to which the plaintiffs
forcefully responded with their own expert testimony.
The district court did not exclude any of that evidence;
the court merely (and correctly) weighed all the
evidence and found Goldman’s evidence insufficient to
establish a complete absence of price impact. On
appeal and in the cert. petition, Goldman then
abandoned the fact-bound argument that the district
court clearly erred in its evaluation of that testimony.
The second question presented asks what burden
the defendants bear in seeking to disprove price
impact. As the Second Circuit, Seventh Circuit, and
United States have recognized, defendants have the
burden to disprove price impact completely by a
preponderance of the evidence. Only that rule is
consistent with this Court’s holding that defendants
can defeat class certification by showing an absence of
price impact, and the Court’s concomitant holding that
plaintiffs do not have the burden of proof.
Goldman argues that whenever the defendants
produce some evidence, the burden of proof switches to
the plaintiffs. Under Goldman’s proposed rule, as a
practical matter, plaintiffs would have the burden of
proof in basically every case. Defendants will
essentially always be able to identify “some evidence”
that the statements did not affect the market price.

3
Indeed, according to Goldman, the court can simply
rely on its own personal intuition that the statements
are “generalized.”
Goldman does not seriously seek to reconcile its
position with this Court’s precedents. Instead, it
argues that the Court’s hands are tied by Federal Rule
of Evidence 301. That, unsurprisingly, is not so. Rule
301 does not apply to class-certification decisions.
Even if it did, the Rule would not prohibit this Court
from holding that a federal statute governing the
litigation of claims is properly implemented through a
burden-shifting regime.
The judgment accordingly should be affirmed.
STATEMENT OF THE CASE
1. This Court has long recognized, and Congress
has subsequently ratified, a private right of action to
enforce Securities and Exchange Commission (SEC)
Rule 10b-5. See Halliburton Co. v. Erica P. John Fund,
Inc., 573 U.S. 258, 267, 269 (2014) (Halliburton II);
Stoneridge Inv. Partners, LLC v. Sci.-Atl., Inc., 552
U.S. 148, 165 (2008). Rule 10b-5 prohibits any false or
misleading statement or omission in connection with
the purchase or sale of a security. See 17 C.F.R.
§ 240.10b-5(b) (implementing 15 U.S.C. § 78j(b),
Section 10(b) of the Securities Exchange Act of 1934,
15 U.S.C. § 78 et seq.). The elements of the 10b-5 cause
of action are:
(1) a material misrepresentation or omission
by the defendant; (2) scienter; (3) a connection
between the misrepresentation or omission
and the purchase or sale of a security;
(4) reliance upon the misrepresentation or

4
omission; (5) economic loss; and (6) loss
causation.
Matrixx Initiatives, Inc. v. Siracusano, 563 U.S. 27, 3738 (2011) (citation omitted).
Where the argument is viable, defendants
uniformly bring early motions to dismiss 10b-5
actions, arguing that the alleged misstatements or
omissions are immaterial as a matter of law. The
materiality inquiry does not directly address the
statements’ empirical effect on the market. Instead, a
statement is legally material only if “a reasonable
investor would have considered the information
significant” in deciding whether to buy or sell a
security. Chadbourne & Parke LLP v. Troice, 571 U.S.
377, 388 (2014) (citing Matrixx, 563 U.S. at 38).
If the suit survives dismissal on materiality
grounds, the plaintiffs generally seek class
certification. Class-action treatment is appropriate
where common questions predominate over individual
issues. Fed. R. Civ. P. 23(b)(3). Securities suits are
often natural fits to proceed as class actions, because
each investor’s proof with respect to each element of
the claim is the same.
To establish reliance on the merits, plaintiffs
generally invoke the “fraud on the market theory”
endorsed by Basic Inc. v. Levinson, 485 U.S. 224
(1988). What “is called the Basic presumption actually
incorporates
two
constituent
presumptions.”
Halliburton II, 573 U.S. at 279. “First, if a plaintiff
shows that the defendant’s misrepresentation was
public and material and that the stock traded in a
generally efficient market, he is entitled to a
presumption that the misrepresentation affected the
stock price.” Ibid. Second, “if the plaintiff also shows

5
that he purchased the stock at the market price during
the relevant period, he is entitled to a further
presumption that he purchased the stock in reliance
on the defendant’s misrepresentation.” Ibid.
At class certification, the plaintiffs must prove the
Basic prerequisites that are not elements of the
plaintiffs’ 10b-5 claim: publicity and market efficiency.
(Timing is a common issue because the class is always
defined to include only those who purchased the
security during the relevant period.) By contrast, the
plaintiffs need not prove materiality, which is an issue
common to the class that will be decided on the merits.
See Halliburton II, 573 U.S. at 282 (reaffirming
Amgen Inc. v. Conn. Ret. Plans & Tr. Funds, 568 U.S.
455 (2013)); cf. Erica P. John Fund, Inc. v. Halliburton
Co., 563 U.S. 804, 813 (2011) (plaintiffs need not prove
loss causation at class certification, because that is a
common element of the claim to be proved on the
merits).
If the plaintiffs prove market efficiency and
publicity, the court addresses price impact.
Halliburton II, 573 U.S. at 282-83. Price impact
resembles materiality in that both relate to investors’
responses to statements and omissions. But there are
important differences. Whereas materiality addresses
whether a hypothetical investor could reasonably rely
on the misstatements, price impact addresses the
empirical question of how this particular market
actually responded—i.e., “whether the alleged
misrepresentations affected the market price.” Id. at
278 (citation omitted); see also U.S. Br. 18. And as
noted, unlike materiality, price impact is litigated at
the class-certification stage because it is not an
element of the plaintiffs’ claim on the merits.

6
If the defendants completely disprove price
impact, the fraud-on-the-market theory cannot be
established, and reliance is not a question common to
the class. 573 U.S. at 278-79. By contrast, the
plaintiffs need not themselves prove price impact. Id.
at 279. Putting that burden on the plaintiffs “would
take away [Basic’s] first constituent presumption”
that material misstatements publicized in an efficient
market will affect a stock’s price. Ibid.
2. Plaintiffs in this case sued Goldman under Rule
10b-5. The complaint arises from Goldman’s creation
and sale of collateralized debt obligations (CDOs) and
synthetic CDOs. 1 Goldman sells those products to
clients on both sides of the transaction—gains to one
group impose losses to the other and vice versa.
Goldman also invests in the products itself. This
practice is exceptionally profitable for Goldman. But
its own financial interests are adverse to some of its
clients’, risking conflicts that, if not properly disclosed
or otherwise addressed, could lead to legal liability,
reputational harm, and lost business.
Goldman acknowledged in filings with the SEC
that “[c]onflicts of interest are increasing and a failure
to appropriately identify and deal with conflicts of
interest could adversely affect our businesses.” JA27.
But it sought to reassure its stockholders that it had
“extensive procedures and controls that are designed
to identify and address conflicts of interest” and that

1 CDOs are securities that pool assets, such as mortgages and
mortgage derivatives, that produce a cash flow. A “synthetic”
CDO is a CDO that invests in credit default swaps or other noncash assets to obtain an exposure to a portfolio of fixed-income
assets without actually owning the underlying securities.

7
“[o]ur clients’ interests always come first.” JA29, 31.
In turn, Goldman’s stock traded at a “premium”
compared to its peers based on Goldman’s supposed
ability to manage those conflicts effectively. JA826,
836, 858.
The complaint details how those statements were
false and misleading, including by omitting that
Goldman had structured enormous transactions to
benefit itself and certain of its clients at the expense
of other clients from whom it hid its massive conflicts
of interest. JA171-88, 206-10, 214-98.
For example, in 2006, foreseeing the collapse of
the subprime mortgage market (in which Goldman
was heavily invested), the firm instructed its mortgage
department to massively reduce its long position in
that market. JA230. In response, the firm created the
so-called Hudson synthetic CDO as a vehicle for its
“structured exit” from some of its troubled
investments. JA231-32. Goldman used the CDO to
short $1.2 billion of mortgage-related assets from its
own inventory, as well as another $800 million in other
subprime residential mortgage-backed securities
(RMBS). Ibid.
Goldman then proceeded to sell the opposite, long
side of the security to its clients—without revealing
that the CDO’s purpose and structure was to reduce
Goldman’s proprietary risk. JA231-32. In fact,
Goldman represented that the CDO was “sourced from
the Street,” and was “not a Balance Sheet CDO,”
implying that Goldman had obtained the assets from
third parties when, in truth, the assets were entirely
from Goldman’s own inventory. JA235-36. Goldman’s
marketing booklet then represented that “Goldman
Sachs has aligned incentives with the Hudson

8
program by investing in a portion of equity,” without
disclosing that this $6 million “long” position was a
mere fig leaf, representing only 1/300th the size of its
short position. JA235. Goldman ultimately pocketed
nearly $1.7 billion in gross revenues from its short
position in Hudson at the direct expense of its Hudsoninvestor clients. JA240.
As another example, also in 2006, Goldman was
asked by a favored client, hedge fund Paulson & Co.,
to structure a transaction that would allow Paulson to
short certain RMBS. JA173. Goldman allowed
Paulson to select underlying assets for the Abacus
portfolio that Paulson believed were particularly
unlikely to perform. JA174. Goldman then
maneuvered to conceal that critical fact by appointing
a third party, ACA Capital Management (ACA), as the
nominal portfolio selection agent, and later convinced
ACA to become the largest investor in Abacus. JA177,
184. Goldman deceived ACA about Paulson’s short
position in Abacus, leading it to believe that Paulson
was investing in the Abacus equity and thus had
aligned interests with ACA in the CDO. JA177, 18385. And in marketing the resulting CDO to other
investors, Goldman did not disclose Paulson’s
involvement in picking assets, much less that Paulson
made those selections while intending to short Abacus.
JA183. When, as expected, the underlying securities
failed catastrophically, Goldman’s customers lost
more than $1 billion, while Paulson, as the CDO’s sole
short, reaped a corresponding profit of the same
amount. JA185.
After the housing market crashed, some in the
press began asking how Goldman could sell its clients
securities that the firm was actually shorting.

9
Goldman responded by insisting that it had no
undisclosed or otherwise improper conflicts with its
clients. For example, one of the statements alleged to
constitute securities fraud in this case came in
response to a New York Times article about Goldman’s
profitable shorting of the mortgage market. See
JA206-10, 217-18. The firm issued a press statement
falsely representing, among other things, that its
short position was “fully disclosed and well known to
investors.” JA209. In the absence of any concrete
evidence that these denials were false, Goldman’s
stock price remained buoyed.
Plaintiffs’ complaint alleges that through these
denials and its earlier misstatements and omissions,
Goldman artificially maintained its stock price above
the value it would have had if the market had known
the truth about Goldman’s conflict-management
practices. This is known as an “inflation-maintenance”
claim.
The complaint further alleges that this artificial
inflation dissipated, and Goldman’s stock price fell
precipitously, in April 2010, because of disclosures
relating to governmental enforcement actions
responding to Goldman’s concealed conflicts of
interest. JA289-301. The SEC sued Goldman for
securities violations relating to its structuring of the
Abacus CDO, citing never-before-seen internal
Goldman communications. Pet. App. 5a-6a.2 That day,
Goldman would later settle the SEC suit for $550 million
and admit to misconduct—namely, that its representations
regarding Abacus and Paulson’s role were “incomplete” and “a
mistake.” JA139-40; see JA187-88. Moreover, a senior Goldman
vice president, Fabrice Tourre, went to trial and was found liable
2

10
the stock price fell nearly 13%. Id. 6a. Subsequent
news reports detailed investigations by the SEC and
U.S. Department of Justice into the Hudson CDO and
other conflicted CDOs. JA300-01. In response, the
stock price fell even further. Ibid.3
3. The district court carefully considered but
ultimately denied Goldman’s motion to dismiss, which
asserted that the misstatements and omissions
identified by the complaint were immaterial as a
matter of law. JA306, 329, 338. Goldman repeatedly
reasserted its materiality objection; the court rejected
it each time. JA339, 347-49.
The district court then granted plaintiffs’ motion
for class certification. Pet. App. 80a. Preliminarily, the
court found that plaintiffs had established that the
misstatements were publicly made and that
Goldman’s stock traded in an efficient market. Id. 89a.
The district court then addressed Goldman’s
attempt to completely disprove price impact. The court
refused to consider testimony offered by Goldman’s
expert Dr. Paul Gompers that price impact was
disproven by the market’s failure to respond to news
reports purportedly disclosing Goldman’s lack of
conflict management. Pet. App. 90a-91a. That
evidence, the court concluded, could not be considered
because it “speaks to the statements’ materiality,”
which is irrelevant at the class-certification stage.
on six of the SEC’s seven counts of securities fraud, including
aiding and abetting Goldman’s fraud in connection with Abacus.
See Verdict, SEC v. Tourre, No. 10-cv-3229, ECF No. 439
(S.D.N.Y. Aug. 1, 2013).
3 Contrary to Goldman’s assertion (at 13), plaintiffs have
never specified a damage claim, much less one for $13 billion.

11
Ibid. After evaluating the parties’ submissions, the
court concluded that Goldman had failed to completely
disprove price impact. Id. 92a.
The Second Circuit granted interlocutory review.
See Pet. App. 70a; Fed. R. Civ. P. 23(f). The court
rejected Goldman’s principal contention that the
statements were immaterial as a matter of law, and
therefore necessarily could not have had price impact.
That argument, the court recognized, was precluded
by this Court’s clear holding that courts should not
determine materiality at class certification. Pet. App.
68a-69a n.6. The court of appeals further held that
defendants have the burden to disprove price impact
by a preponderance of the evidence, not merely the
burden to produce some evidence. Id. 73a-75a.
Importantly, however, the court of appeals agreed
with Goldman that evidence relating to price impact
can be considered notwithstanding that it overlaps
with materiality. It therefore held that the district
court had erred in refusing to consider Gompers’
report in relevant part. Pet. App. 76a-78a. The court of
appeals vacated and remanded the case for further
proceedings. Id. 76a.
4. On remand, the district court re-certified the
class after receiving new briefing and additional
expert reports, and holding a two-day evidentiary
hearing. Pet. App. 49a. Goldman submitted a
supplemental report by Gompers. Goldman also
introduced the expert report of Dr. Laura Starks, who
opined that the alleged misstatements were so
generalized that they did not affect the market price
for Goldman’s stock, as evidenced principally by her
review of analyst reports. See JA584, 596-605. In
rebuttal, plaintiffs introduced their own expert

12
testimony refuting Starks’ conclusions. JA647, 652-59.
The court did not exclude any of that evidence.
Ultimately, after reviewing all of the evidence, the
district court concluded that Goldman had failed to
prove by a preponderance of the evidence that the
misstatements and omissions had no effect on the
market price. Pet. App. 54a. After personally
reviewing each media report Goldman cited, the court
concluded that most of the articles contained “generic
reports on conflicts” but contained no proof of improper
conflicts that Goldman had failed to manage
appropriately. Id. 55a & n.6; see also ibid. (noting that
some “were not damaging or revelatory, but rather
commendatory”). A few articles may have suggested
Goldman might have engaged in undisclosed or
otherwise improper conflicts. But those articles lacked
the “hard evidence,” details, and credibility reflected
by the subsequent corrective disclosures. The market’s
lack of reaction to the articles therefore did not
demonstrate that investors were indifferent to
whether Goldman was engaged in improper conflicts
with its clients. Id. 56a. Far more likely, the court
found, was that the market did not react because in
the same group of reports, Goldman repeatedly and
vociferously denied that it had engaged in improper,
undisclosed conflicts. Ibid.
The district court further found that the
statistical analysis from Goldman’s expert Dr.
Stephen Choi was “unreliable for four reasons” (Pet.
App. 57a), ranging from the expert’s “arbitrary”
method of selecting events for the study (ibid.), to his
failure to account for the nature of the misconduct
alleged in prior enforcement actions (id. 58a), to

13
serious methodological errors in his statistical
analysis (id. 58a-59a).
The Second Circuit granted interlocutory review
again and affirmed, this time by a divided vote. Pet.
App. 3a. The court unanimously rejected Goldman’s
principal contention that inflation-maintenance cases
in particular cannot be certified as class actions absent
proof that the misstatements were material as a
matter of law. Just like Goldman’s argument in the
first appeal, the court explained, that contention could
not be reconciled with this Court’s holding that
materiality is not determined at class certification. Id.
15a-25a. Goldman’s attempt to narrowly prescribe
inflation-maintenance cases was simply arguing
“materiality by another name,” because it raised the
exact same objection as a materiality challenge. Id.
24a.
But the Second Circuit again distinguished
improper reliance on the standard for determining
materiality from the permissible reliance on evidence
that overlaps with materiality: “just because
something looks like materiality does not mean it is
materiality. Price impact also resembles materiality,
but defendants may attempt to disprove it at class
certification.” Pet. App. 23a; see also id. 27a (“even
though defendants may not challenge materiality at
the Rule 23 stage, they may present evidence to
disprove price impact”).
Goldman further argued that the district court
had erred by failing to find that Goldman had
completely disproved price impact. Critically,
however, Goldman did not argue that the district court
had failed to consider any evidence. Nor, importantly,
did Goldman argue that the district court had failed to

14
correctly evaluate the Starks report regarding the
effect of the statements’ generality. And Goldman did
not argue that the court of appeals itself should weigh
the statements’ supposed generality in its overall
assessment of the price-impact evidence. Addressing
the arguments Goldman did make—which related to
the Gompers and Choi reports—the majority found no
clear error in the district court’s assessment of the
parties’ competing proof. Pet. App. 27a-35a.
Judge Sullivan filed a dissenting opinion, to which
the majority responded. The dissent was generally
persuaded that Goldman’s experts Gompers and
Choi—not Starks, whom Goldman referenced only in
passing—had disproven price impact. Pet. App. 40a44a. In addition, the dissent sua sponte undertook “to
consider the nature of the alleged misstatements in
assessing” price impact. Id. 44a. On that question, the
dissent did not rely on any evidence or address the
particular context of the case, such as the importance
of conflicts of interest to the price of Goldman’s stock
in particular. Instead, explicitly applying the standard
for determining materiality as a matter of law, the
dissent deemed it “obvious” that “no reasonable
investor would have attached any significance to the
generic statements on which Plaintiffs’ claims are
based.” Id. 44a-45a. The dissent concluded that
excluding the materiality inquiry from the
determination of price impact amounted to “rigid
compartmentalization” that was not “possible, much
less required.” Id. 45a.
In response, the majority rejected the dissent’s
view that it was appropriate to deny class certification
based on the “assertion that th[e] statements are too
general as a matter of law.” Pet. App. 37a. In the

15
majority’s view, “[w]hat the dissent really wants to do
is to revisit the question of whether the statements are
too general as a matter of law to be deemed material.”
Ibid. “[T]his argument is just a redux of Goldman’s
unsuccessful Rule 12(b)(6) argument to dismiss and its
motion to reconsider that loss in the district court.” Id.
37a n.24.
SUMMARY OF ARGUMENT
I. The parties agree that in assessing price impact,
courts may account for statements’ “generality.” They
disagree on how. Goldman argues that courts may
conclude as a matter of “common sense” that a
statement’s generality supports the conclusion that it
had no effect on the share’s price. The better view is
that courts should consider only actual evidence—
particularly, expert testimony—regarding whether
the statements were so generalized that the market in
fact did not account for them.
That conclusion follows from how price impact is
actually litigated in securities cases. By the time it
considers that issue, the district court has already
rejected the argument that the statements are
immaterial as a matter of law. After the plaintiffs
prove market efficiency and publicity, the defendants
try to disprove price impact. Most often, they attempt
to prove that the misstatements did not affect the
price, but some other cause did. The parties generally
dispute those questions through expert reports that
provide “event studies” of the misstatements and the
allegedly confounding causes.
Goldman is correct as a commonsense matter that
usually—although not always—a more-general
statement will affect a security’s price less than a
more-specific statement on the same question. But

16
that truism is not very helpful here. In assessing price
impact, the court does not determine in the abstract
whether a misstatement had less of an effect than
some other, hypothetical statement that was never
made. Instead, it decides the empirical, contextdependent question whether the statement that was
actually made (or the information that was not
disclosed) had no effect on price. That question is
properly considered through the submissions of
professionals who are qualified by training and
experience to opine on whether the market regarded
the statements as too generalized to matter to
investors’ decisions. Goldman’s own expert economist
amici strenuously make that very point. Whether
those expert submissions are persuasive will vary
according to the case, and Goldman has not preserved
any challenge to the district court’s assessment of the
expert testimony here. But that testimony will be far
more reliable than judicial intuition.
Goldman’s position would also require courts to
decide price impact as a matter of intuition in the
worst possible posture. The district court would have
already eliminated the easy cases that are most
susceptible to commonsense judgments: It will have
deemed the most-generalized statements to be
immaterial as a matter of law. In the remaining cases,
Goldman’s rule will only apply if the defendants will
have been unable to find any qualified expert willing
to opine that the market regarded them as too
generalized to matter. In that situation, judges are
especially ill-suited to use their own personal opinions
to find a complete absence of price impact.
As the dissent in this case demonstrates,
appellate judges tasked with assessing price impact

17
based on their own sense of the likely effects of a
general statement are likely to revert to the standard
for legal immateriality—i.e., whether the statements
were so vague that no investor could reasonably rely
on them. But this Court’s precedents correctly deem
that question to be off-limits at the class-certification
stage, because it is both common to the class and an
element of the plaintiffs’ claim. Goldman’s proposed
rule would therefore create considerable confusion as
courts seek to navigate this Court’s holdings that the
determination
of
legal
immateriality
is
simultaneously irrelevant to class certification and
potentially dispositive under the guise of price impact.
And it would moreover effectively allow defendants
improperly to take interlocutory appeals on the
question of materiality.
No matter what rule the Court adopts, it should
affirm. The Second Circuit already applies the correct
legal rule. That is why Goldman was able to introduce
its expert report addressing the statements’ generality
in the district court, without objection. The district
judge correctly found that Goldman had not carried its
burden of proof.
The district court did not refuse to consider any
evidence regarding the statements’ generality.
Goldman then forfeited the issue in the Second Circuit
by failing to argue that the district court erred in its
analysis of Goldman’s expert testimony on the
statements’ generality. Nor did Goldman even ask the
court of appeals to make its own supposedly
commonsense assessment of that question. And in
turn, it preserved none of those points in its cert.
petition.

18
II. Goldman is also wrong in arguing that
defendants need only satisfy a burden of production on
price impact. This Court’s decisions make clear that a
defendant must prove an absence of price impact.
Further, in Halliburton II, this Court refused to put
the burden of persuasion on price impact on the
plaintiffs. Because the burden of production is not
heavy, Goldman’s proposal is little different from the
one Halliburton II rejected. And it is just as
inconsistent with Basic’s purpose of making it possible
to litigate securities cases as class actions, which the
Court and Congress have recognized is frequently the
best way to resolve claims of securities fraud.
Goldman nonetheless insists that this Court had
no say in the matter. Instead, it claims, Federal Rule
of Evidence 301 only permitted the Court to shift the
burden of production to defendants. But this Court
rejected that interpretation of Rule 301 nearly three
decades ago, explaining that the Rule “in no way
restricts the authority of a court or an agency to
change the customary burdens of persuasion in a
manner that otherwise would be permissible.” NLRB
v. Transp. Mgmt. Corp., 462 U.S. 393, 404 n.7 (1983),
abrogated in part on other grounds by Dir. v.
Greenwich Collieries, 512 U.S. 267 (1994). And courts
have long had the authority, quite apart from any Rule
of Evidence, to adopt burden-shifting regimes to
implement federal statutes.
Further, Rule 301 is inapplicable because when
Basic is invoked at the class-certification stage—as
opposed to the merits—the court does not in fact
“presume” anything about reliance or price impact.
The court merely concludes that common issues
predominate, such that the case is suitable for

19
collective litigation. To decide that question, the court
does not resolve the factual question of whether the
plaintiffs relied on the defendants’ misstatements—
whether through a presumption or otherwise. That is
why the court does not decide whether the defendants’
statements are material, even though materiality is
an essential prerequisite for any rational presumption
of reliance. See Amgen, 568 U.S. at 466-67. Instead,
the Court has held that if a plaintiff proves the
defendant’s statement was publicized in an efficient
market, the case is appropriate for class adjudication
unless a defendant can prove a lack of price impact.
That framework for deciding the class-certification
question does not implicate Rule 301.
ARGUMENT
I.

Courts May Rely On Evidence Such As
Expert Testimony To Address Whether
Statements Were So Generalized That They
Did Not Affect The Market Price.

The first question presented asks, in essence,
whether and how a court’s evaluation of price impact
should account for the misstatements’ “generality.”
The parties have substantially narrowed their
arguments in their merits briefs. So there is now more
common ground than territory to be fought over.
Most important, Goldman has abandoned the
contention that a court may find no price impact by
holding that the misstatements are immaterial as a
matter of law. That had been Goldman’s theory on
appeal and in all but two sentences of the cert.
petition.
For our part, plaintiffs have elected to defend the
Second Circuit’s rule, rather than seek to limit further

20
the evidence that is relevant to price impact. We are
not pressing the argument—which we unsuccessfully
made in the initial appeal to the Second Circuit—that
evidence should be excluded at class certification to
the extent it overlaps with materiality.
The parties (along with the government) have
therefore landed on substantial common, middle
ground. They agree that evidence of the statements’
generality can be relevant to price impact,
notwithstanding that it overlaps with materiality.
That is already the rule in the Second Circuit. But
Goldman devotes most of its argument to kicking in
that open door. The disagreement is instead over
process—i.e., how may a court assess the effect of the
statements’ generality on price impact? Goldman only
barely addresses that issue.
There are two possibilities. Everyone agrees that
the court can consider evidence (particularly, expert
submissions), which is how the court conducts the rest
of the price-impact inquiry. Importantly, that rule is
entirely consistent with the Second Circuit’s decisions
in this case. Goldman introduced expert testimony on
that issue, to which plaintiffs responded, and which
the district court ultimately rejected in finding that
Goldman did not completely disprove price impact.
Goldman did not seek review here on that fact-bound
question.
More controversially, Goldman now argues that
the court can rely on the judge’s personal,
“commonsense”
view—untethered
from
any
evidence—of whether the statements were too general
to affect the security’s price. It provides only two
sentences of explanation: “It is simply intuitive that,
the more generic the challenged statement, the less

21
likely it is to affect the price of the stock. A judge is not
required to set aside common sense in addressing the
Basic presumption.” Petr. Br. 27.
For the reasons that follow, Goldman’s argument
lacks merit. Here, as in certain other contexts,
“common sense is a much less useful criterion than it
sounds,” as it can unhelpfully “devolv[e] into
guesswork and intuition.” Johnson v. United States,
576 U.S. 591, 599-600 (2015).
A. Goldman Fails To Account For How
Price Impact Is Actually Litigated In
Securities Fraud Cases.
Invariably, price impact is litigated in securities
fraud cases that involve some price movement,
whether when the statements were made or at the
time of the corrective disclosure. Without price
movement, the plaintiffs do not file suit. Also, the
plaintiffs’ complaint will have survived the rigorous
screens that Congress enacted to curb abusive suits in
the Private Securities Litigation Reform Act of 1995
(PSLRA), Pub. L. No. 104-67, 109 Stat. 737.
Further, the court will address price impact only
after rejecting the argument that the statements or
omissions were immaterial as a matter of law.
Defendants uniformly raise any viable materiality
argument early in the litigation through a motion to
dismiss.4 Before class certification, the court accordingly
For very recent examples of suits being dismissed on that
basis, see, e.g., Okla. Law Enf’t Ret. Sys. v. Papa John’s Int’l, Inc.,
2021 WL 371401, at *7 (S.D.N.Y. Feb. 3, 2021) (alleged
misstatement in company’s code of conduct is “vague, broad, and
merely aspirational: it makes no promises as to what Papa John’s
4

22
will have concluded that investors could reasonably
have relied on the statements. That means that the
most obviously “general” statements are already out of
the case, if the complaint has not been dismissed
altogether.
Such a case is ordinarily a natural fit for class
certification. The remaining issues to be litigated on
the merits—for example, the statements’ materiality
and falsity, and the defendants’ state of mind—affect
all the class members equally. It would make little
practical sense for each shareholder to pursue such a
claim in an individual lawsuit. Class certification is
therefore not a natural tool to weed out supposedly
abusive securities cases; that is not Rule 23’s role. If
the case lacks merit, it is better to resolve all the
shareholders’ claims together. Although defendants
regularly complain about the prospect of extortionate
class-action demands, Congress heard those concerns,
studied them, and addressed them through the
carefully crafted, demanding procedural and
substantive requirements of the PSLRA.
Even then, class-action treatment is not
appropriate for every case involving even public
misstatements relating to securities traded on
would do to prevent or respond to workplace sexual harassment[.]
In light of these circumstances, no reasonable investor could have
relied on the Code’s vague assurances in making investment
decisions.”); Constr. Laborers Pension Tr. v. CBS Corp., 433
F. Supp. 3d 515, 533-34 (S.D.N.Y. 2020) (alleged misstatements
“come close to being statements of fact; but they are nonetheless
too general and disconnected from Plaintiffs’ central theory of
securities fraud to be material. ... No reasonable investor would
rely on these statements as assurance that CBS had no high-level
executive who was vulnerable to a ‘#MeToo moment.’”).

23
efficient markets. If the defendants completely
disprove price impact, they disprove class-wide
reliance, such that individualized issues will
predominate in the case. Statements or omissions that
have no effect on the market price are not conveyed to
investors through that mechanism. And because price
impact (unlike materiality) is not an element of the
plaintiffs’ case, it is not reserved for the merits
instead.
The context in which price impact is litigated
informs the arguments that defendants make to
disprove it, and in turn the proof that courts properly
consider. Defendants generally try to show one or both
of two things. First, the statements or omissions were
not related to the change in the security’s price.
Second, some other, confounding cause was. The
plaintiffs and defendants generally dispute those
issues through competing expert reports, which often
take the form of “event studies” examining the
empirical question of how the market responded to the
statements and to the supposed confounding causes.
This case followed the usual litigation pattern.
Here is Goldman’s novel, two-part argument to the
Second Circuit that the defendants’ statements about
their conflict policies and business practices did not
affect the security’s price: Goldman’s expert Gompers
opined that an absence of price impact was proved by
the fact that Goldman’s stock price did not react to the
purported revelations of Goldman’s conflicts of
interest in more than thirty-five different
publications. But few if any “irrelevant” issues get
such prominently recurring attention in, for example,
The Wall Street Journal.

24
Goldman further argued that the price declines
were attributable entirely to a different cause: the
market’s reaction to the mere news of the
governmental enforcement actions, as opposed to the
ensuing disclosures about Goldman’s unaddressed
conflicts. Goldman’s expert Choi opined that similar
stock declines had occurred in response to similar
enforcement actions. But even if true, it is hard to see
how that makes any legal difference. The decline in
Goldman’s stock price is naturally attributable (at
least in part) to Goldman’s misstatements that it had
extensive controls in place to manage conflicts, which
is what maintained the market’s inflated (but
subsequently dashed) expectation that there would be
no such governmental enforcement action.
The district court unsurprisingly certified the
class. By the time the court reached that question, it
had (repeatedly) rejected Goldman’s materiality
challenge that the statements were too general and
aspirational to induce reasonable reliance by
investors. The court also found that the statements
were public and that the market for Goldman’s stock
efficiently accounts for material information.
The district court received extensive submissions
and held an evidentiary hearing. It found that
Goldman had not satisfied its burden to completely
disprove price impact. The court found that Gompers’
reliance on the discussions of Goldman’s conflicts in
various publications was unpersuasive, both because
they were accompanied by Goldman’s repeated denials
that it had unaddressed conflicts and because the
disclosures accompanying the enforcement actions
were far more detailed and therefore were more likely
to affect share prices. The disclosures for the first time

25
“expose[d] hard evidence of Goldman’s client conflicts”
including “direct quotes from damning” internal
documents, and therefore were more “reliable and
credible” than the prior “generic” media reports on
Goldman’s potential conflicts. Pet. App. 55a-56a. To
this day, Goldman never accounts for the district
court’s factual finding, made after a careful review of
all the articles, that “the tenor and quality of [the] 36
[news] reports vary significantly,” with many
suggesting only “possible or theoretical conflicts” and
“others were not damaging or revelatory, but rather
commendatory: they praised Goldman for managing
its conflicts and still outperforming competitors.” Id.
55a n.6.
The district court further found that, even
assuming that one cause of the price drops was the
market’s reaction to the costs associated with
governmental enforcement, that could not explain the
entire decline. Some inevitably related directly to the
market’s view that Goldman’s reputation had been
seriously harmed, making it less valuable as a
company, given that it failed to manage such serious
conflicts. The court concluded that the report of
plaintiffs’ expert—which included its own event study
and assessment of analyst reports and other market
commentary—“at the very least, establishes a link
between the news of Goldman’s conflicts and the
subsequent stock price declines.” Pet. App. 12a
(quoting id. 54a).
The district court found that Choi’s report arguing
to the contrary was rife with serious methodological
flaws. For example, Choi relied on a statistically
unsound sample of only four, cherry-picked
enforcement actions. Further, because Choi did not

26
conduct any event study with respect to the second and
third corrective disclosures, the court found that
“there is no good reason to extend Dr. Choi’s findings
on the first price decline to those second and third
price declines.” Pet. App. 57a.
Goldman now argues that a court is obligated to
assess whether as a matter of “common sense” the
statements’ generality means that they lacked price
impact. That argument lacks merit. For the reasons
that follow, almost without exception, judges should
consider the statements’ generality by evaluating
evidence such as expert testimony rather than
applying their own intuitions. The district court
received and evaluated that evidence, consistent with
the Second Circuit’s existing rule. Goldman did not
ask the court of appeals to decide, or preserve for
review in this Court, the question whether the district
judge’s fact-finding on that issue was clearly
erroneous.
B. Courts Should Rely On Evidence, Not
Personal Intuition, About How The
Statements’ Generality Affected The
Market Price.
Goldman’s entire argument rests on two
sentences it presents as a truism about intuition and
“common sense,” without any supporting authority or
analysis. See supra at 20-21. Goldman is correct, to the
extent it is merely asserting that, as an abstract
matter in most cases, a more-general statement is
relatively less likely to affect a security’s price than a
more-specific statement on the same topic in the
identical context. But for four reasons, that is not a
basis to hold that, in the mine run of cases, it is
appropriate for judges to determine price impact on

27
the basis of their personal view of the statements’
generality.
First, the price-impact inquiry is not relative,
hypothetical, and abstract in the way that Goldman’s
truism supposes; it is absolute, empirical, and contextspecific. The question at class certification is not
whether the defendants’ statements were less likely to
move the price than an imagined, more-specific
statement that the defendants never made. Instead,
the question is whether the actual statements affected
the market price at all. If so, then that price
transmitted information to the market and the
question whether the shareholders relied on it is
common to the class as a whole.
Here is an illustration about how abstract,
relative intuitions may not be useful. As a matter of
common sense, Tesla stock will perform worse if
demand for electric cars goes down than if demand
goes up. So, a judge could reasonably conclude without
expert testimony that Tesla stock will probably do
worse if demand for electric cars goes down 5% than
up by 5%.
But what if the judge instead must decide an
empirical
question
that
parallels
securities
defendants’ attempts to disprove price impact: Did
Tesla stock go down in response to an announced 5%
decrease in the demand for electric cars, or instead
because the market learned of facts that called into
doubt important representations by Tesla executives
about anticipated demand? The abstract, relative
truism now provides little help. The question the judge
must decide depends on context-specific factors about
the statement, including by whom it was made and
when, on what topic, and how it compared to other

28
statements. It also depends on context-specific factors
about Tesla’s business, including whether Tesla’s
sales faced the same 5% decline as the broader
industry, and how much of Tesla’s revenue or profit
was expected to come from new car sales in the first
place. A court would not decide the question based on
personal intuition; it would look to evidence, likely
including expert testimony.
So too with a judge’s ruling on whether
statements and omissions had no price impact. That is
not a “commonsense,” relative determination, unlike
the question whether statements would have had more
effect on the security’s price if they had been even
more specific. Price impact is also context-dependent.
It can turn tremendously on factors that include but
are not limited to: the particular corporation; the
subject of the statements; their timing; the precise
speaker; what was omitted; why the statements were
false; and how the statements relate to earlier ones by
the company on the same subject.
Further, as the government points out (at 16-17),
even Goldman’s abstract truism is not always true.
Sometimes, a generalized statement can be more
likely to affect market prices. That may be so when,
for example, a general statement departs from prior,
repeated specific assurances to the contrary. Further,
a statement that in one context might be “generalized”
and dismissed by the market may closely resemble in
another context one that is “categorical and sweeping”
and therefore extremely important to shareholders.
Judges are poorly positioned to distinguish one case
from the other by intuition.
Even if Goldman’s truism could be applied
accurately in cases involving a single misstatement,

29
many cases do not fit that model. As here, the
plaintiffs will often argue that a diverse set of
statements—some more specific than others—
improperly maintained an already-inflated share
price. The plaintiffs will also argue that the
statements created an obligation for the defendants to
address the implied falsehoods that resulted from any
generalization. A court is poorly positioned to simply
intuit that the statements and omissions had zero
effect on market prices.
Take this case. Plaintiffs argue that Goldman’s
stock uniquely traded at a premium to its competitors
because the market placed special value on its ability
to create highly profitable investment products that it
could sell to customers on both sides of the transaction,
while successfully navigating potential conflicts of
interest.5 A judge cannot determine the effect of those
misstatements and omissions as an abstract matter
based on a personal sense of how much markets
usually care about general statements. Plaintiffs also
rely on the combined effect of multiple statements and
omissions on maintaining Goldman’s inflated market
price. Mere “common sense” cannot tell the court how
market participants regarded their effect, taken
together.
Second, courts have no special experience with, or
knowledge about, how much importance markets
attribute to the various types of statements and

Plaintiffs’ argument was supported by their expert’s
testimony and numerous analyst reports and market
commentary discussing this Goldman reputational “premium,”
which “dissolved” upon revelation of Goldman’s conflicts in the
corrective disclosures. JA954-57.
5

30
omissions that often underlie securities fraud claims.
When Goldman argues that its position is “common
sense,” it simply means “not counterintuitive.” But
that could be said of many other factual questions
embedded in the price-impact inquiry that everyone
agrees are addressed instead by experts’ event
studies—not intuition. In this case, for example,
Goldman argues that the market reacted negatively to
the prospect of costs arising from the governmental
enforcement actions. That is intuitively correct, but it
is also not the issue. One can say as a commonsense
matter that the enforcement actions contributed to the
price decline, but not that they caused all of it.
Courts also confront the question of price impact
in a posture that makes it least susceptible of an
intuitive answer. The easy cases—those in which the
statements are so vague that a reasonable investor
could not rely on them—have already been dismissed
on the ground that they are immaterial as a matter of
law. It is hard to see how a district judge would refuse
to dismiss the statements on that ground, but then
promptly turn around and deem them intuitively so
generalized that they had no effect on price. If the
district court does not reverse itself, then on appeal it
is hard to understand how appellate judges could find
that their own “commonsense” view of the statements
renders clearly erroneous the contrary “commonsense”
view of the district judge, who is substantially more
familiar with the statements and their context.
Third, it is unnecessary for judges to apply their
own personal views. Every time the argument has
merit, the defendants can easily produce actual
evidence—particularly, expert testimony—for the
court to evaluate. Almost every price-impact dispute is

31
framed by expert testimony through event studies.
Generally, the defendants argue that the statements
or omissions were not relevant to the market price.
Qualified experts on both sides should be wellpositioned to address, by applying their professional
experience to the facts of the case, whether the
statements were so generalized that the market
regarded them as irrelevant.
Indeed, as discussed, Goldman retained an expert
to make essentially that argument in this case, to
which plaintiffs provided a detailed response of their
own expert. Goldman then made the choice not to
seriously pursue that evidence and that argument on
appeal. It is passing strange for Goldman to have cast
aside its own expert’s opinions, in order to rely on
judges’ intuitions on the identical question in this
Court.
Goldman’s own amici provide strong support for
the proposition that experts rather than judges should
opine on the effect of the statements’ generality. The
amici are “financial economists” who have “served as
testifying and consulting experts in ... securities class
action cases.” Financial Economists Amicus Br. 1. The
economists explain that they are the ones actually
qualified to address this issue: “[A]n analysis of the
content of alleged misstatements is a key part of an
economic assessment of price impact.” Id. 4 (emphasis
added). Specifically, “in a situation in which a
company is alleged to have made only generalized
statements regarding business principles that were
not met with any stock price reaction when they were
made, an economist should test whether such
statements had a price impact.” Id. 7 (emphasis
added); see also id. 10, 11, 12, 13, 14 (explaining over

32
and over why the judgment about the statements’
generality should be made by a qualified “economist”).
Goldman argues that judges should make their
own “commonsense” judgment in the cases in which
the defendants by hypothesis will not have been able
to produce any supporting expert testimony. The court
is thus flying blind, into the headwind that the
statements are material. It is being asked to make the
personalized judgment that material statements had
zero effect on market prices, when the defendants
could not find anyone with relevant experience willing
to submit testimony backing up that claim. The court’s
common sense cannot supply that judgment.
Fourth, Goldman’s proposal would regularly put
courts in untenable dilemmas as they attempt to
navigate among Amgen, Halliburton II, and the ruling
Goldman asks the Court to adopt here. These issues
are difficult enough as it is. See In re Allstate Corp.
Sec. Litig., 966 F.3d 595, 608-09 (7th Cir. 2020).
Amgen and Halliburton II hold that courts may not
determine materiality on class certification. But
Goldman’s proposal would essentially require them to
do just that.
As discussed, there are important differences
between a statement’s materiality to a hypothetical
reasonable investor and the judgment that the
statement was so generalized that it did not in fact
affect market prices. But appellate judges are
nonetheless overwhelmingly likely to use the identical
test to decide both questions, if forced to decide the
issues as an intuitive matter. Judges have no expertise
with which to make the latter, empirical judgment. So
they inevitably will resort to materiality case law and
find no price impact when they disagree with the

33
district court’s finding of materiality. Importing
materiality back into the class-certification inquiry
would render this Court’s decisions in Halliburton II
and Amgen a nullity.
Judge Sullivan’s dissent in this case—which is the
source of Goldman’s proposal—proves the point. The
dissent relied exclusively on the legal standard for
materiality in opining that the statements underlying
plaintiffs’ claims were too generalized to have price
impact. He explained that, in his view, “no reasonable
investor would have attached any significance to the
generic statements on which Plaintiffs’ claims are
based.” Pet. App. 44a-45a.6 Of note, not even the dissent
located in Goldman’s appellate argument any reliance
on Starks’ expert testimony regarding the statements’
generality. The dissent instead reached its own
conclusions based on its own intuition, without
addressing the particular context in which these
statements about this aspect of this specific company
are alleged to have maintained the inflated market
price.
Goldman’s proposal would thus deny class
certification based on a common question that will
later be resolved at trial. It would also permit
defendants effectively to take an improper
interlocutory appeal of district courts’ denials of
motions to dismiss on the question of materiality—a
See also, e.g., In re Signet Jewelers Ltd. Sec. Litig., 2019 WL
3001084, at *18 (S.D.N.Y. July 10, 2019) (“This argument tracks
... the same ‘puffery’ argument advanced by Defendants’ in their
recent Rule 12(c) motion. … For the reasons discussed in the
Court’s recent Decision Denying Defendants’ Motion for
Judgment on the Pleadings …, the Court finds this argument
unpersuasive.”)
6

34
transparent goal of Goldman’s—when that issue is not
part of the class-certification determination and not
subject to interlocutory appellate review under Rule
23(f).
C. This Court Should Affirm The Second
Circuit’s Judgment.
If this Court agrees with Goldman that judges
may freely make “commonsense” judgments that
material statements have no price impact, it should
nonetheless affirm because Goldman has waived that
claim. It did not make that argument in the Second
Circuit, where it instead made the categorical claim
that it abandoned in its merits briefing in this Court:
that defendants may relitigate materiality at class
certification, at least in inflation-maintenance cases.7
It then raised the issue in merely two sentences of the
cert. petition. But if the Court is uncertain, it should
vacate and remand for the Second Circuit to determine
whether Goldman preserved that argument below
and, if so, to address it. See U.S. Br. 26.
If this Court instead agrees with us that judges
should rarely if ever depart from the practice of using
actual evidence to determine the price effect of the
statements’ generality, it should affirm. There is no
basis to remand for the Second Circuit to apply that
standard, because Goldman waived that argument
too, and because the court of appeals already applies
the correct rule.
7 The lower courts have uniformly recognized inflationmaintenance as a valid basis to bring securities fraud claims. See,
e.g., Pet. App. 15a-17a; Allstate, 966 F.3d at 610-12. Goldman
does not challenge that view. We therefore do not address that
issue.

35
As discussed above, Goldman did not argue before
the Second Circuit panel or in the cert. petition that
courts should consider evidence such as expert
testimony to the effect that the statements were
supposedly too general to affect the market price.
Goldman had earlier submitted an expert report
making that argument. But for whatever reason, it
decided to abandon that approach on appeal. It did not
rely on that testimony to support that argument in the
Second Circuit.8 Applying the correct “clearly erroneous”
standard, the Second Circuit considered and rejected
the challenge Goldman did make to the district court’s
assessment of the evidence relevant to price impact.
Goldman likely did not pursue this argument
because plaintiffs thoroughly refuted it. Plaintiffs
submitted a rebuttal declaration from their own
expert, who explained that the Starks report “fails to
consider” that “investors would be likely to utilize”
disclosures about Goldman’s conflicts of interest “in
assessing the riskiness of investing in the company’s
securities.” JA647. Further, the Starks report relies on
faulty methodology by examining analyst reports only
for express references to Goldman’s statements. That
fails to account “for references to the same subject
matter of the alleged misstatements and omissions, or
references that paraphrase Defendants’ misleading
statements.” Ibid. Given those flaws, the report is

Goldman never cited the Starks report to the Second Circuit
in support of the argument it makes now. Indeed, it barely
referenced the report at all in its argument (as opposed to as
background facts). See Petr. C.A. Br. 50 n.11; C.A. Reply Br. 18.
So too in the cert. petition, which cited the Starks report only
once—and then only in the statement of facts. Pet. 10.
8

36
“unreliable and irrelevant.” Ibid.; see generally JA65259 (detailing these errors).
Further, Starks made critical concessions at her
deposition. For example, when shown an analyst
report issued after the first alleged corrective
disclosure, JA881-90, discussing the “reputation
damage” and potential “client fallout due to this [SEC]
case” from the “current public outrage against the
firm,” Starks admitted that “the public outrage would
have been against the underlying actions” alleged in
the SEC suit, which “could have a negative” “effect on
Goldman’s stock price,” JA667-68.
Goldman then waived the argument in this Court
as well, by not raising it in its petition for certiorari.
The petition almost exclusively raises the argument
that Goldman has now abandoned: that courts may
find a lack of price impact on the ground that
statements are immaterial as a matter of law.
Further, in seeking certiorari, Goldman did not ever
even remotely suggest that it was asking this Court to
re-evaluate the evidence that was before the district
court and apply the clearly erroneous standard itself.
If Goldman had made that wholly fact-bound request,
it is all-but certain that certiorari would have been
denied.
There also is no basis to reverse, because the
Second Circuit already applies the correct rule. The
court of appeals squarely held, in its first decision in
this case, that evidence relevant to price impact is
admissible notwithstanding its overlap with
materiality. When plaintiffs first moved for class
certification, Goldman sought to disprove price impact
in part based on various articles discussing Goldman’s
conflicts of interest. Goldman pointed to the fact that

37
its stock price did not change in response to the
articles. It argued that the market therefore did not
care about Goldman’s conflicts. According to Goldman,
if the articles had no price impact, then neither did the
misstatements. The district court excluded that
evidence on the ground that it overlapped
substantially with materiality.
On Goldman’s appeal, the Second Circuit
reversed. The court of appeals agreed with Goldman
that the overlap between price impact and materiality
was not a basis to exclude the evidence. On remand,
the district court evaluated the evidence and found
that Goldman did not completely disprove price
impact. In particular, the court recognized that the
corrective disclosures through the government’s
enforcement actions were much more credible and
specific, supported by “hard evidence” of Goldman’s
conflicts,
than
the
articles’
“generic”
and
uncorroborated discussions of merely “possible or
theoretical” conflicts. See supra at 12, 24-25. In
addition, the court found that many of the news
articles were accompanied by Goldman’s denials that
it had unaddressed conflicts of interest and other
rebuttals, and that “other[] [articles] were not
damaging or revelatory, but rather commendatory:
they praised Goldman for managing its conflicts and
still outperforming competitors.” Pet. App. 55a n.6.
Ignoring the Second Circuit’s initial decision,
Goldman asserts that the court sweepingly held in its
second ruling that the statements’ generality is
irrelevant to price impact because it overlaps with
materiality. That characterization is not correct, and
such a holding would have been flatly inconsistent
with its prior ruling in this same case. Goldman

38
cannot seriously argue that the Second Circuit held
that expert testimony regarding the statements’
generality is inadmissible on class certification, when
Goldman successfully introduced exactly that kind of
evidence—with no objection by plaintiffs in either the
district court or on appeal.
Goldman thus seriously mischaracterizes the
litigation below when it asserts that “the second panel
rejected petitioners’ argument that the district court
erred by refusing to consider the generic nature of the
statements as evidence that the challenged
statements did not affect the stock price.” Petr. Br. 18.
Goldman did not make that argument below and the
Second Circuit thus did not reject it, which is why
Goldman does not cite its briefs on appeal and just
generally cites 9 pages of the opinion below without
any specific reference.
Although
the
Second
Circuit
majority
“characterized petitioners’ argument as an attempt to
‘smuggl[e] materiality into Rule 23,’” Petr. Br. 18
(quoting Pet. App. 22a), that was a response to an
entirely different argument: Goldman’s assertion that
the court should modify “our inflation-maintenance
doctrine” to permit such claims only if plaintiffs prove
the statements were not “generalized” in the sense
that they were material as a matter of law. Pet. App.
21a-22a; see also id. 19a (“Although these findings
satisfy the inflation-maintenance doctrine, Goldman
asks us to narrow the doctrine’s focus.”).
The Second Circuit majority also did not “refuse[]
to consider the generic nature of the alleged
misstatements” in determining price impact (Petr. Br.
19 (citing nothing)), something it was never asked to
do. Specifically, Goldman did not preserve the

39
argument that the Second Circuit should reverse on
either (1) the fact-bound ground that the district court
erroneously failed to find an absence of price impact in
light of the Starks report, or (2) the legal ground that
the district court erroneously excluded evidence
relating to the statements’ generality. Instead,
Goldman argued that plaintiffs must prove
materiality in inflation-maintenance cases. Petr. C.A.
Br. 49-50.
The court of appeals majority merely rejected
Judge Sullivan’s invocation of his own view of the
statements’ generality that he based on the standard
used for determining materiality as a matter of law.
The dissent found persuasive Choi’s testimony
regarding the market effect of governmentalenforcement actions. The dissent also went further
and concluded sua sponte that the statements’
generality confirmed Choi’s conclusions. Judge
Sullivan relied not on expert testimony regarding the
statements’ generality (no doubt, because Goldman
did not ask the court to), but instead on his own view
that the statements were immaterial as a matter of
law. In response, the majority reiterated its ruling
that materiality is a merits question, and reaffirmed
its conclusion that the district court’s view of the
evidence was not clearly erroneous.
In sum, this Court can and should issue an
opinion that announces the correct legal rule without
vacating the judgment below and remanding, and
thereby incorrectly suggesting that the lower courts
erred. Goldman litigated class certification before both
the district court and the Second Circuit—twice.
Plaintiffs addressed, and the district judge and the
Second Circuit majorities resolved, the arguments

40
that Goldman actually made and the evidence it cited.
There is no basis to require the parties and the courts
do it all over yet a third time, or even to send the
confusing signal of requiring the court of appeals to
reconsider the case when it already applies the correct
rule. Doing so in order to save Goldman from its own
litigation choices would be a substantial disservice to
the judges who have considered class certification in
this case repeatedly over the past five years, in this
already eleven-year-old case. It would also invite
parties to regularly smuggle wholly fact-bound
questions into cases before this Court, after purporting
to present pure questions of law for its review.
II. Defendants Bear The Burden Of Persuasion
On Price Impact.
Goldman also claims the court of appeals erred in
holding that a defendant seeking to rebut the Basic
presumption of reliance bears the burden of
persuasion, rather than merely the burden of
production. Petr. Br. 37-43. As explained by the
United States and every court of appeals to have given
reasoned consideration to the question, that is
incorrect. See U.S. Br. 27-33; Allstate, 966 F.3d at 61011; Waggoner v. Barclays PLC, 875 F.3d 79, 99-103 (2d
Cir. 2017).
A. Basic And Halliburton II Assigned
Defendants The Burden Of Persuasion.
In Basic, the Court directly addressed what is
“sufficient to rebut the presumption of reliance,”
holding that the defendant must “show that the
misrepresentation in fact did not lead to a distortion of
price or that an individual plaintiff traded or would
have traded despite his knowing the statement was

41
false.” 485 U.S. at 248 (emphasis added). “For
example,” the Court explained, “if petitioners could
show that the ‘market makers’ were privy to the truth
... and thus that the market price would not have been
affected by their misrepresentations ... the basis for
finding that the fraud had been transmitted through
market price would be gone.” Ibid. (emphasis added).9
In Halliburton II, the Court applied the same rule
to price impact, holding that a defendant “rebut[s] the
presumption by showing ... that the particular
misrepresentation at issue did not affect the stock’s
market price.” 573 U.S. at 279 (emphasis added). The
Court used the same formulation in describing the
plaintiffs’ burden of establishing the Basic
prerequisites, which the plaintiffs must prove by a
preponderance of the evidence. See id. at 268.
In addition, the Court has always treated
rebutting the Basic presumptions as precluding class
certification. See, e.g., Halliburton II, 573 U.S. at 281.
That makes perfect sense if the defendant proves that
its statements had no price impact—the premise of the
fraud-on-the-market theory “would be gone,” ibid.
(citation omitted), and individualized proof of reliance
would predominate. But precluding class certification
would make no sense at all if defendants bore only the
burden of production. See Tex. Dep’t of Cmty. Affs. v.
Burdine, 450 U.S. 248, 254 (1981) (to satisfy burden of

9 Goldman’s reliance (at 41) on Basic’s passing citation to
Rule 301 is misguided. See U.S. Br. 31. Notably, the Court
conspicuously cited to the Advisory Committee Notes that
accompanied the original version of the Rule, which had proposed
that presumptions shift the burden of persuasion. See Basic, 485
U.S. at 245.

42
production, a “defendant need not persuade the
court”).
Perhaps for this reason, Goldman seemingly
contemplates that meeting the burden of production
simply shifts the burden of persuasion on price impact
to the plaintiffs. See, e.g., Petr. Br. 39. But Goldman
itself argues that under settled law, a presumption has
no effect on the burden of persuasion, which is left
with “the party who had it originally.” Ibid. (quoting
Fed. R. Evid. 301). Accordingly, a defendant’s
satisfaction of a burden of production could only saddle
plaintiffs with the burden of proof on price impact if
the plaintiffs had been assigned the burden of
persuasion on that issue “originally.” In Halliburton
II, however, this Court expressly declined to put the
burden of proof of price impact on the plaintiffs in the
first instance. Halliburton II, 573 U.S. at 278-79. To
say that plaintiffs nonetheless end up with the burden
of proof once the defendant meets a burden of
production requires either overruling Halliburton II or
adopting a kind of presumption that Goldman insists
is unknown to the law (i.e., one in which the initial
burden of proof is assigned to no one, but falls upon the
plaintiffs after the defendants sustain a burden of
production).10
Even setting aside the doctrinal incoherence it
would attribute to this Court’s decisions, Goldman
10 Goldman observes that plaintiffs bear the burden of
persuading the court that they meet the requirements of Rule 23.
Petr. Br. 39. But Basic does not establish a presumption about
compliance with the Rules. The price impact rebuttal is directed
instead at Basic’s “‘presumption’ that ‘the misrepresentation
affected the stock price.’” Ibid. (quoting Halliburton II, 573 U.S.
at 279). On that question, plaintiffs bear no original burden.

43
cannot explain why the Court would have refused to
put the burden of proof on price impact on plaintiffs in
the first instance in Halliburton II, yet have intended
them to bear that burden in every case in which a
defendant is able to introduce some evidence
suggesting its statements had no price impact. See
U.S. Br. 29. In actual litigation, there would be little
difference between Goldman’s and Halliburton’s
proposals. The burden of production is not heavy. See
Burdine, 450 U.S. at 254 (defendant need only present
enough evidence to raise “a genuine issue of fact”). In
this context, defendants will surely argue that their
burden is met by producing an expert report
purporting to disprove price impact, or a news report
a jury could believe disclosed the truth before the stock
price fell. See, e.g., Petr. Br. 45-46; Allstate, 966 F.3d
at 610. Indeed, Goldman would seemingly deem it
sufficient for a defendant to point to the allegedly
general nature of its statements and argue that such
statements are unlikely to affect stock prices.
“The presumption of reliance would ... be of little
value if it were so easily overcome.” Waggoner, 875
F.3d at 100-01. Goldman argues to the contrary that
its rule would create “incentives for defendants to
produce evidence of the absence of price impact” and
“‘sharpen the inquiry’ on the question of price impact.”
Petr. Br. 42 (quoting Burdine, 450 U.S. at 255 n.8)
(alteration omitted). But the Court did not create the
Basic presumption out of concern that defendants had
unique access to evidence regarding price impact. Nor
does Basic exist to progressively sharpen an inquiry
into an “elusive factual question” like an employer’s
state of mind. Burdine, 450 U.S. at 255 n.8.

44
Instead, the presumption’s fundamental purpose
is to facilitate securities class actions, a type of claim
both the Court and Congress have recognized is
frequently appropriate for collective adjudication. See
Halliburton II, 573 U.S. at 268; 15 U.S.C. § 78u-4
(establishing rules specific to securities class actions).
Goldman’s rule would greatly diminish Basic’s ability
to perform that important function.
B. Federal Rule Of Evidence 301 Does Not
Preclude This Court From Assigning
Defendants The Burden Of Persuasion
On Price Impact.
In the end, Goldman does not seriously attempt to
show that the Court actually intended for defendants
to rebut the Basic presumption by doing nothing more
than producing some evidence suggesting a lack of
price impact. Instead, Goldman’s principal argument
is that it does not matter what the Court intended
because the Court had no choice in the matter because
Rule 301 of the Federal Rules of Evidence limited the
Court to imposing only the burden of production
on defendants. Petr. Br. 38-40. 11 The defendant in
Halliburton II made the same argument.12 This Court
necessarily rejected that interpretation of the Rule
11

Rule 301 provides:
In a civil case, unless a federal statute or these rules provide
otherwise, the party against whom a presumption is
directed has the burden of producing evidence to rebut the
presumption. But this rule does not shift the burden of
persuasion, which remains on the party who had it
originally.

Fed. R. Evid. 301.
12

See Halliburton II Reply Br. 23.

45
when, as just explained, it imposed the burden of
persuasion on defendants. The Court was right then
and Goldman is wrong now.
1. Not everything that could be (or has been)
described as a “presumption” is subject to the Rule.
See, e.g., Microsoft Corp. v. i4i Ltd. P’ship, 564 U.S. 91,
104 n.6 (2011) (refusing to apply Rule 301 to a statute
that created a “presumption of patent validity,”
explaining that the “word ‘presumption’ has often been
used when another term might be more accurate”).
In particular, Rule 301 “in no way restricts the
authority of a court or an agency to change the
customary burdens of persuasion in a manner that
otherwise would be permissible.” NLRB v. Transp.
Mgmt. Corp., 462 U.S. 393, 404 n.7 (1983), abrogated
in part on other grounds by Dir. v. Greenwich
Collieries, 512 U.S. 267 (1994). In Transportation
Management, the National Labor Relations Board
(NLRB)—whose administrative proceedings are
governed by the Rules of Evidence, see id. at 403 n.7—
had adopted the rule that if an employee “carrie[s] the
burden of persuading the Board that antiunion
animus contributed to the employer’s decision to
discharge,” the illegal animus would be presumed to
have caused the employee’s termination unless the
employer proved “by a preponderance of the evidence”
that it would have fired the worker regardless of her
union involvement. Id. at 395. Like Goldman here, the
employer argued that because the NLRB’s rule
established a presumption, Rule 301 precluded
“shifting the burden of persuasion onto the employer.”
Transp. Mgmt. Resp. Br. 20 n.6, 35-36. This Court
rejected the employer’s reading of the Rule. It
explained that the provision “merely defines the term

46
‘presumption’” and does not limit an agency or court’s
power to use other sources of authority to establish
burden-shifting regimes that shift the burden of
persuasion upon proof of predicate facts. 462 U.S. at
404 n.7.13
That interpretation aligns with the Rule’s text. By
its terms, Rule 301 addressed the effect of (1) a
presumption on (2) the burden of production. The Rule
does not purport to preclude (1) other sources of law
from (2) shifting the burden of persuasion. See Fed. R.
Evid. 301 (“But this rule does not shift the burden of
persuasion[.]”) (emphasis added).
The text, in turn, is consistent with the traditional
understanding of presumptions. For example,
Professor Thayer—proponent of the “bursting bubble”
approach to presumptions—explained in his
influential treatise that the “characteristic and
essential work of the presumption” is to fix “the duty
of going forward with proof.” James Bradley Thayer, A
Preliminary Treatise on Evidence at the Common Law
337 (1898). But he also explained that “substantive
law” may “fix the rule about the strength of conviction
that must be produced in the mind of the tribunal” to
overcome the presumption. Ibid.; see also Microsoft,
564 U.S. at 103 (explaining that a “rule as to the
13 Goldman’s only response to Transportation Management is
to accuse the Court of providing a “cursory answer to an ancillary
and largely unbriefed question.” Petr. Br. 42 (quoting Greenwich
Collieries, 512 U.S. at 277). But the proper distribution of
burdens was the only question in the case. 462 U.S. at 395. And
a principal reason the employer gave there for why the “burden
of persuasion never shifts to the employer,” Transp. Mgmt. Resp.
Br. 33, was that Rule 301 forbade it, id. 33-36; see also Transp.
Mgmt. Council on Labor Law Equality Amicus Br. 34-36 (same).

47
amount of evidence which is needed to overcome the
presumption” can be “superadded to the rule of
presumption” by other sources of substantive law)
(quoting Thayer, supra, at 336-37).
This makes perfect sense. When a statute is silent
on the subject, courts may assign initial burdens of
proof without regard to Rule 301, according to the
courts’ sense of “policy and fairness based on
experience in the different situations.” Keyes v. Sch.
Dist. No. 1, 413 U.S. 189, 209 (1973) (quoting 9 J.
Wigmore, Evidence § 2486, at 275 (3d ed. 1940)). That
same context-specific assessment may sometimes lead
courts to conclude that a law is best implemented by
shifting the burden of persuasion after a party makes
a preliminary showing. See ibid. It would be strange if
Congress intended a Rule of Evidence to preserve
courts’ ability to assign the initial burden of proof, but
to forbid courts from adopting more sophisticated
burden-shifting regimes that transfer the burden of
persuasion upon a prima facie showing, as was
commonplace before and after Rule 301 was enacted.
See, e.g., id. at 208-09.
Here, defendants have the burden of proof on price
impact not because Basic imposed a “presumption,”
but because this Court adopted this distribution of
burdens as “a substantive doctrine of federal
securities-fraud law.” Halliburton II, 573 U.S. at 274
(citation omitted). Rule 301 says nothing about the
Court’s authority to assign that burden as part of the
work of implementing the 10b-5 cause of action. See
1 Christopher B. Mueller & Laird C. Kirkpatrick, Fed.
Evid. § 3:8, Westlaw (database updated May 2020)
(some “court-made presumptions closely associated
with statutory schemes ... are largely substantive

48
because they seek to implement those schemes, and
these [rules] are beyond reach of Rule 301”).
Goldman’s contrary claim conflicts not only with
Transportation Management, but with numerous
other cases from this Court and others that have
devised burden-shifting regimes that transfer the
burden of persuasion upon a prima facie showing. See,
e.g., Int’l Bhd. of Teamsters v. United States, 431 U.S.
324, 359 n.45, 362 (1977) (shifting burden of
persuasion through a “rebuttable presumption” of
individualized discrimination in pattern-or-practices
cases); Franks v. Bowman Transp. Co., 424 U.S. 747,
772-73 & n.32 (1976) (same); United States v. White,
466 F.3d 1241, 1248-49 (11th Cir. 2006) (burden of
proving inaccuracy of tax assessment shifted to
taxpayer in government tax collection case); Kelly v.
Armstrong, 141 F.3d 799, 802 (8th Cir. 1998) (burden
shifting in bankruptcy cases); In re Nautilus Motor
Tanker Co., 85 F.3d 105, 113-14 (3d Cir. 1996)
(admiralty); Plough, Inc. v. Mason & Dixon Lines, 630
F.2d 468, 470 (6th Cir. 1980) (transportation).
2. When, as here, Basic is invoked at class
certification, Rule 301 is inapplicable for the even
more fundamental reason that nothing about reliance
or price impact is even being presumed.14
Goldman assumes that the Rules of Evidence apply to classcertification proceedings. But that is an open question in this
Court. See, e.g., Comcast Corp. v. Behrend, 569 U.S. 27, 32 n.4
(2013) (granting certiorari to decide, but ultimately not reaching,
question whether class certification must be decided on basis of
admissible evidence); Fed. R. Evid. 1101(c) (only “rules on
privilege apply to all stages of a case or proceeding”); Fed. R. Evid.
1101(d) (providing that other rules do not apply to “miscellaneous
proceedings” and giving non-exhaustive list of examples).
14

49
At class certification, plaintiffs are not proving
that they actually relied on the defendants’
statements. That question is for summary judgment or
trial. At class certification, the question is whether “a
proposed class is ‘sufficiently cohesive to warrant
adjudication by representation.’” Amgen, 568 U.S. at
469 (citation omitted). For that reason, the plaintiffs
are not required to establish all the elements that
would justify an actual presumption of reliance. They
need not prove, for example, that the defendants’
statements were material, even though this Court has
recognized that materiality “indisputably” is “an
essential predicate” of any permissible presumption of
reliance. Id. at 466-67 (explaining that “[b]ecause
immaterial information, by definition, does not affect
market price, it cannot be relied upon indirectly by
investors”).
At class certification, then, the Basic rule does not
operate as a “presumption” within the meaning of Rule
301 because it is not being used to presume the
existence of a fact based on proof of predicate facts. See
Petr. Br. 38; see also 1 Jack B. Weinstein & Margaret
A. Berger, Weinstein’s Evidence Manual § 5.02[1],
Matthew Bender (database updated 2020). Instead,
the Court has simply identified certain facts a plaintiff
can prove to establish suitability for class treatment
(publicity and market efficiency) and allowed
defendants an opportunity to establish a different fact
(lack of price impact) that would indicate that class
treatment is unwarranted. Rule 301 imposes no
constraints on that exercise.
3. Finally, even if Rule 301 applied, Basic would
fall within its exception for cases in which “a federal
statute ... provide[s] otherwise.” Fed. R. Evid. 301; see

50
Allstate, 966 F.3d at 610-11; Waggoner, 875 F.3d at
103.
This Court has determined that the Securities
Exchange Act of 1934, 15 U.S.C. § 78 et seq., impliedly
provides for a private right of action with the burdenshifting regime described in Basic. See Halliburton II,
573 U.S. at 274. The burden shifting rules are
“provide[d]” for in the statute in the same way that the
cause of action and presumption are. Ibid.
Congress then enacted legislation that presumes
the continued existence of private securities class
actions under the Basic regime. See Stoneridge Inv.
Partners, LLC v. Sci.-Atl., Inc., 552 U.S. 148, 165-66
(2008) (in the PSLRA, Congress “ratified” 10b-5
private cause of action “as then defined”). Through
that legislation, Congress has “provid[ed]” for the
continued operation of the Basic presumption in the
manner described in that decision.

51
CONCLUSION
For the foregoing reasons, the judgment of the
court of appeals should be affirmed.
Respectfully submitted,
Thomas A. Dubbs
James W. Johnson
Michael H. Rogers
Irina Vasilchenko
LABATON SUCHAROW LLP
140 Broadway, 34th Floor
New York, NY 10005
Spencer A. Burkholz
Joseph D. Daley
ROBBINS GELLER RUDMAN
& DOWD LLP
655 W. Broadway., Ste. 1900
San Diego, CA 92101
February 24, 2021

Thomas C. Goldstein
Counsel of Record
Kevin K. Russell
Erica Oleszczuk Evans
GOLDSTEIN &
RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
tg@goldsteinrussell.com

